<html>
<title> - MARKUP OF H.R. 3190, BURMA Act of 2019; H.R. 2327, Burma Political Prisoners Assistance Act; H.R. 1632, Southeast Asia Strategy Act; H.R. 3252, Global Respect Act; H.Res. 259, H.Res. 432, H.Res. 441, H.Res. 444, H.R. 2229, First Responders Passport Act of 2019</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


  MARKUP OF H.R. 3190, BURMA Act of 2019; H.R. 2327, Burma Political 
Prisoners Assistance Act; H.R. 1632, Southeast Asia Strategy Act; H.R. 
 3252, Global Respect Act; H.Res. 259, H.Res. 432, H.Res. 441, H.Res. 
         444, H.R. 2229, First Responders Passport Act of 2019

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             June 20, 2019

                               __________

                           Serial No. 116-49

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                            

       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-770PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------                       

                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman

BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                              
                             
                                     
                Jason Steinbaum, Democrat Staff Director
               Brendan Shields, Republican Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                         BILLS OFFERED EN BLOC

H.R. 3190........................................................     2
H.R. 2327........................................................    56
Amendment in the Nature of a Substitute to H.R. 2327 offered by 
  Mr. Levin......................................................    64
H.R. 1632........................................................    71
Amendment in the Nature of a Substitute to H.R. 1632 offered by 
  Mrs. Wagner....................................................    78
H.R. 3252........................................................    85
H.Res. 259.......................................................   100
Amendment in the Nature of a Substitute to H.Res. 259 offerd by 
  Mr. Engel......................................................   104
H.Res. 432.......................................................   108
Amendment to H.Res. 432 offered by Mr. McCaul....................   115
H.Res. 441.......................................................   119
H.Res. 444.......................................................   124
Amendment to H.Res. 444 offered by Mr. Lieu......................   129
H.R. 2229........................................................   131
Amendment to H.R. 2229 offered by Mr. Chabot.....................   133

                  INFORMATION SUBMITTED FOR THE RECORD

Russian LGBTI Network Report submitted for the record from 
  Representative Cicilline.......................................   148
Article: Azerbaijan named most anti-LGBT+ country in Europe 
  submitted for the record from Representative Cicilline.........   179
Article: Lesbian conference in Ukraine targeted by anti-LGBT 
  protesters submitted for the record from Representative 
  Cicilline......................................................   181
Article: Stabroek News submitted for the record from 
  Representative Cicilline.......................................   185
Article: GAYSTARNEWS Alegerian man's throat cut, then killers 
  write 'gay' on the wall with his blood submitted for the record 
  from Representative Cicilline..................................   187

                               
                               APPENDIX

Hearing Nnotice..................................................   196
Hearing Minutes..................................................   197
Hearing Attendance...............................................   198
Hearing Markup Summary...........................................   199

             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD

Statement submitted for the record from Representative Wright....   200

 
  MARKUP OF H.R. 3190, BURMA Act of 2019; H.R. 2327, Burma Political 
Prisoners Assistance Act; H.R. 1632, Southeast Asia Strategy Act; H.R. 
 3252, Global Respect Act; H.Res. 259, H.Res. 432, H.Res. 441, H.Res. 
         444, H.R. 2229, First Responders Passport Act of 2019

                        Thursday, June 20, 2019

                        House of Representatives

                      Committee on Foreign Affairs

                                     Washington, DC

    The committee met, pursuant to notice, at 10:07 a.m., in 
room 2172 Rayburn House Office Building, Hon. Eliot Engel 
(chairman of the committee) presiding.
    Chairman Engel. The committee will come to order.
    Pursuant to notice, we meet today to markup nine bipartisan 
measures. Without objection, the chair is authorized to declare 
a recess of the committee at any point.
    Pursuant to Committee Rule 4, the chair announces that the 
chair may postpone further proceedings on approving any measure 
or matter or adopting an amendment.
    Without objection, all members may have 5 days to submit 
statements or extraneous materials on today's business.
    As members were notified yesterday, we intend to consider 
today's en bloc.
    The measures are H.R. 3190, the BURMA Act of 2019; H.R. 
2327, Burma Political Prisoners Assistance Act, with the Levin 
amendment in the nature of a substitute; H.R. 1632, Southeast 
Asia Strategy Act, with the Wagner amendment in the nature of a 
substitute; H.R. 3252, the Global Respect Act; H. Res. 259, 
expressing the sense of the House of Representatives to support 
the repatriation of religious and ethnic minorities in Iraq to 
their ancestral homelands, with the Engel amendment in the 
nature of a substitute; H. Res. 432, condemning the attacks on 
peaceful protestors and supporting the immediate peaceful 
transition to a civilian-led democratic government in Sudan, 
with the McCaul amendment; H. Res. 441, condemning the attack 
on the AMIA Jewish community center in Buenos Aires, Argentina, 
in July 1994, and expressing the concern of the United States 
regarding the continuing 25-year-long delay in the resolution 
of this case and encouraging accountability for the attack; H. 
Res. 444, reaffirming the importance of the United States to 
promote the safety, health, and wellbeing of refugees and 
displaced persons, with the Lieu amendment; and H.R. 2229, 
First Responders Passport Act of 2019, with the Chabot 
amendment.
    [The Bills offered en bloc follow:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Engel. At this time, I recognize myself to speak 
on today's business. We have nine good bipartisan measures 
before us today. I am pleased to support them all.
    First, I want to discuss some of the bills and resolutions 
that deal with human rights. I will start with the bill 
introduced with Mr. Chabot, the BURMA Act.
    The world watched with horror as reports came out about the 
Burmese military and security forces' atrocities against the 
Rohingya people.
    Now, over 1 million Rohingya refugees are in Bangladesh, 
unable to return home safely, and the Burmese military is using 
the same violent tactics against other ethnic minorities in 
Burma.
    The BURMA Act will hold the perpetrators of these horrific 
crimes accountable and pursue justice for the victims. It also 
works to reform Burma's gemstone sector that is currently 
dominated by the military.
    This lucrative industry should benefit the Burmese people. 
It should pay for the infrastructure and economic development 
so desperately needed there instead of funding the conflicts 
plaguing that country.
    We passed the BURMA Act with broad bipartisan support in 
the last Congress and I hope this year we get it across the 
line to the president's desk and help bring a measure of 
justice to the Rohingya people.
    While the BURMA Act focused on accountability for the 
military and security forces, we also need to hold the civilian 
government in Burma accountable for their crackdown on dissent.
    Aung San Suu Kyi's government is repressing civil society 
and silencing journalists--I never thought I would ever say 
this--including two Reuter's journalists who were imprisoned 
for 500 days for reporting on the Rohingya crisis.
    That brings me to Mr. Levin's Burma Political Prisoners 
Assistance Act. This bill calls on Aung San Suu Kyi's 
government to reform these repressive laws, and adds on the 
State Department's work to support civil society and free 
political prisoners.
    It is a good bill and I urge all members on both sides of 
the aisle to join me in supporting it.
    Next, I will turn to Mr. Fortenberry and Ms. Eshoo's 
measure that supports justice for persecuted minorities in 
Iraq.
    I have discussed this with Mr. Fortenberry for many, many, 
many months. He has worked very hard on this. This resolution 
condemns the tragic and horrific brutality that ISIS has 
wrought on religious and ethnic minorities in that country.
    It also calls on the United States along with the Iraqi and 
Kurdish regional governments to support the safe return and 
integration of these groups into Iraqi society. That includes 
Christians. It is a good resolution, and I am pleased to 
support it.
    Today marks World Refugee Day so it is fitting that we are 
considering Mr. Lieu's measure reaffirming the importance for 
the United States to promote health and wellbeing of refugees 
and displaced persons.
    This measure is a critical and timely call for all of us. 
We must continue to support refugee protection and humanitarian 
response to leadership investment of resources and partnership.
    Countless brave children, women, and men have been forced 
out of their homes by violence, conflict, persecution, natural 
disaster, or war. Across most of our history there would be no 
question that the United States would stand ready to provide a 
measure of relief for those desperate people.
    Today, sadly, I am sure that commitment is in doubt in many 
places around the world. So I thank Mr. Lieu for bringing 
forward this resolution that reaffirms what our country stands 
for, and I support moving it forward today.
    Next, another piece of important human rights legislation, 
the Global Respect Act. Throughout the world everyday people 
face violence, discrimination, cruel inhumane degrading 
treatment simply because of whom they love. This is about 
people's safety and security.
    We need to condemn persecution and violence against LGBT 
communities wherever and whenever it happens and those 
responsible for this sort of bigotry need to face justice.
    The Global Respect Act puts visa sanctions on those 
responsible for human rights abuses against the LGBT community 
and requires the State Department to report on these issues in 
their human rights.
    Mr. Cicilline, thank you for introducing this measure and 
for your remarkable leadership on this issue. I am a proud co-
sponsor and I strongly support its passage.
    Now I will turn to Mr. Kildee's resolution dealing with the 
ongoing crisis in Sudan, which I was pleased to join in as an 
original co-sponsor.
    The situation in Sudan is dire and it is important that 
Congress send a strong message. Peaceful pro-democracy 
protestors are under attack by the country's security forces, 
especially General Hemedti's Rapid Support Forces.
    H. Res. 432 condemns these human rights abuses and pushes 
the Administration to work with international partners to 
resolve the current crisis in Sudan.
    This resolution is an important measure to show that 
Congress stands with the people of Sudan in their fight for a 
democratic civilian--led government. I am proud to support it 
and I urge all members to do the same.
    Now I will turn to Mr. Deutch's resolution that strongly 
condemns the attack on the AMIA Jewish Community Center that 
took place 25 years ago in Buenos Aires.
    This one hits close to the heart. I visited AMIA twice to 
meet with the community there and pay my respects to the 
victims. It is an absolute tragedy and, frankly, it is an 
outrage that after all these years there still has not been 
justice for those 85 victims and their families.
    This resolution condemns the attack and calls for swift 
action to bring the perpetrators to justice. I am pleased to 
support it. I followed this case. It is a disgrace. Every time 
we think we are right there something happens to push it away.
    Next, the First Responders Passport Act from Mr. Chabot. 
This is a good bill that passed the House in the 114th 
Congress, and I am glad we are considering it again now.
    USAID-supported search and rescue teams have played an 
essential role in the aftermath of many overseas natural 
disasters, including earthquakes in Nepal, Haiti, Japan, and 
New Zealand.
    These first responders provide specialized capabilities and 
demonstrate our commitment to international partners during 
times of need. This bill would authorize the Secretary of State 
to waive passport fees for the brave Americans who mobilize 
quickly as part of the U.S. government-supported team to help 
other countries when a natural disaster hits abroad.
    This is a common sense fix for Americans who risk life and 
limb to help other countries during times of despair and I am 
please to move it forward.
    Finally, we have the Southeast Asia Strategy Act from Mrs. 
Wagner. Southeast Asian States have been central to United 
States policy in Asia for decades and they are key partners in 
advancing our interests in the Indo-Pacific region.
    But at this point, the United States still has not put 
together a comprehensive strategy on how to strengthen our 
engagement with these countries.
    The Southeast Asia Strategy Act calls on the Secretary of 
State to develop this policy so we can fully engage with our 
partners on some of the most critical issues facing our world 
today.
    From climate change and human rights to security 
cooperation, energy, and a growing global economy, it is a good 
bill to strengthen our position in this critical region.
    I am pleased to support all these measures and I would like 
to thank our members for their hard work.
    And now I will recognize our ranking member, Mr. McCaul of 
Texas, for his remarks.
    Mr. McCaul. Thank you, Mr. Chairman.
    Today, our committee will mark up five bills and four 
resolutions. This builds on the 26 bills and seven resolutions 
the committee has already approved, many in a bipartisan 
manner.
    In particular, I would like to thank the vice ranking 
member, Mrs. Wagner, for her bill, the Southeast Asia Strategy 
Act. This bill will promote U.S. cooperation with the 
Association of Southeast Asian Nations and establish a 
comprehensive interagency strategy for engagement in Southeast 
Asia with ASEAN.
    ASEAN is at the center of Asia's strategic and economic 
future and critical to the Administration's Indo-Pacific 
strategy. This legislation is especially important now to help 
us better counter China in their Belt and Road Initiative.
    I would like to thank also Mr. Chabot for his bill to give 
the Secretary of State discretion to waive passport fees for 
certain American first responders making trips abroad for 
natural disaster response efforts as natural disasters can 
strike anywhere at any time.
    I saw firsthand when Hurricane Harvey hit Texas, first 
responders and volunteers were absolutely critical in helping 
victims, cleaning up debris and restoring necessities such as 
electricity and clean water.
    I appreciate Chabot's bill that would help these responders 
travel to aid a foreign country suffering from such disasters.
    Last, I am proud to support, once again, Chairman Engel's 
BURMA Act of 2019. The Foreign Affairs Committee has a decades-
long history of holding the Burmese military accountable for 
their atrocities.
    It is more important than ever after their genocide against 
their own people in August 2017. The BURMA Act will selectively 
revive the sanctions regime that was recklessly scrapped during 
the last administration, which is long overdue.
    With that, Mr. Chairman, I look forward to considering 
these bills and I yield back.
    Chairman Engel. Thank you, Mr. McCaul.
    Does anyone seek recognize for the purpose of speaking on 
the en bloc passage?
    Mr. Sherman.
    Mr. Sherman. Mr. Chairman, I just want to commend you and 
the ranking member once again for an outstanding package of 
bills brought forward in a collegial and bipartisan manner.
    With regard to Asia, I particularly want to focus on the 
ethnic cleansing, if not the genocide, of the Rohingya and I am 
glad that we are dealing with two bills today that deal with 
that.
    It is so important that the people of the--moving on to H. 
Res. 259, it is so important that the Assyrians and other 
ethnic minorities and religious minorities of Iraq be allowed 
to return in safety to their ancestral homelands.
    And we are, of course, remembering what happened to the 
Jewish community of Buenos Aires and taking a strong stand to 
support the LGBTI community.
    So it is an excellent package of bills. Pleased to co-
sponsor them all, and I yield back.
    Chairman Engel. Thank you, Mr. Sherman.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    Thank you, Chairman Engel, and Ranking Leader--Republican 
Leader Mike McCaul for bringing these important bills to markup 
today.
    These bills address some of the most pressing issues facing 
the world today and they are a testament to the bipartisan 
spirit of this committee.
    I would like to start by expressing my strong support for 
House Resolution 441 condemning the attack on the Mutual 
Israelite Association of Argentina--AMIA--Jewish Community 
Center in Buenos Aires, Argentina, in July 1994 introduced by 
my friend and chairman of the Middle East, North Africa, and 
International Terrorism Subcommittee, Ted Deutch.
    This dastardly attack carried out by Iran's primary global 
proxy, Hezbollah, tragically killed 85 innocent people and 
injured 300 others.
    But for 25 years, those responsible for this tragic attack 
have not faced justice. In 2006, Argentine Special Prosecutor 
Alberto Nisman formerly accused the Iranian government of 
directing the attack and confirmed that Hezbollah carried it 
out.
    But, unfortunately, the highest levels of the Argentinian 
government were also involved in the cover-up to seal Iran's 
role in the bombing.
    Nisman was found shot in the head 1 day before he was 
scheduled to present his findings on the case to the 
Argentinian Congress.
    And here we are, nearly 25 years to the day of the AMIA 
bombing and not a single Iranian suspect has faced prosecution. 
Our hearts go out to the families and loved ones of the victims 
of this horrible attack.
    Justice must be served. I am grateful to support this 
measure as original co-sponsor and appreciate that Chairman 
Deutch has highlighted this case and advocated for justice for 
these families.
    I would also like to express my support for Mr. Chabot's 
support measures H.R. 2229 that would waive passport fees for 
selfless American first responders traveling abroad to aid a 
foreign country suffering from a natural disaster.
    The generosity and charitable spirit of the American people 
are boundless. When disaster strikes, brave American men and 
women risk their lives to shuttle off to places many of us have 
never heard of to help local communities deal with some of the 
most devastating conditions on Earth.
    They not only help those communities but, in the long run, 
they spread good will about America. They ultimately serve as 
Ambassadors of our country and represent the best of the United 
States.
    The very least we in Congress can do to support these 
courageous individuals is waive their passport fees and send 
them on their way. Again, thanks to Mr. Chabot for his great 
work on this bill.
    Last, I would like to express my strong support for 
Chairman Engel and Mr. Chabot's BURMA Act of 2019. The ongoing 
situation in Burma is beyond belief. The massive human rights 
abuses and unthinkable violence against ethnic Rohingya 
civilians in Burma are reprehensible.
    We have seen the tragic reports. Seven hundred and fifty 
thousand have already fled, 80 percent of whom are women and 
children.
    But even when they finally get out of Burma these hapless 
refugees are packed in harsh conditions and sometimes even 
targets of continued violence.
    Just last month, 65 Rohingya refugees were found 
shipwrecked and stranded in southern Thailand, suspected of 
being victims of human trafficking.
    This is, unfortunately, an ongoing situation and the 
Burmese military leaders with blood on their hands have yet to 
be held accountable for their crimes against humanity.
    That is why the BURMA Act is so critical. It would ensure 
sanctions, accountability, and justice related to the ethnic 
cleansing of the Rohingya in Burma.
    It is our moral imperative to stand with the systematic 
human rights abuses of the--against the abuses of the Burmese 
military and seek accountability and justice for the victims of 
this heinous campaign.
    With that, I yield back the balance of my time.
    Chairman Engel. Thank you, Mr. Wilson.
    Mr. Deutch.
    Mr. Deutch. Thank you, Mr. Chairman. I thank you and the 
ranking member for bringing this slate of bipartisan measures 
before us today. I am proud to support all of them.
    I thank my colleagues for continuing to highlight the gross 
injustices taking place against the Rohingya in Burma. I thank 
Mr. Cicilline for his tireless work to fight for equality and I 
stand with him in making clear that attacks on the LGBTI 
community are attacks on fundamental human rights.
    I support Mr. Lieu's effort to remind the world that we 
have a responsibility to those who are fleeing violence and 
displacement in seeking a better life.
    I am also proud to stand with my colleagues in support of 
those peaceful protestors in Sudan who seek a democratic 
transition and have been met with violence. These deadly 
attacks must end and a civilian transition must begin.
    It is with a heavy heart that I, along with the ranking 
member of the Middle East, North African, and International 
Terrorism Subcommittee, Mr. Wilson, and the chairman and 
ranking member of the Western Hemisphere Subcommittee, Mr. 
Sires and Mr. Rooney, introduced a resolution marking the 25th 
anniversary of the AMIA terror attack and urging justice and 
accountability for those responsible for this attack.
    On July 18th, 1994, a terrorist detonated a car bomb in the 
AMIA building, a Jewish community center in Buenos Aires. 
Eighty-five innocent people were killed. Hundreds more were 
injured, and to date this remains the deadliest terror attack 
in Argentina.
    Unfortunately, the investigations into the AMIA attack have 
been marked by long delays and judicial misconduct, failing 
thus far to bring justice for the victims, for the families, 
and for the community.
    Considerable evidence has linked this heinous attack to the 
terrorist group Hezbollah and to its sponsor, the government of 
the Islamic Republic of Iran, and despite warrants issued by 
the Argentinian justice system for Iranian and Lebanese 
nationals thought to be involved in the attacks and their 
addition on Interpol's most wanted lists, Iranian and Hezbollah 
operatives have yet to face accountability for their actions.
    After the previous president of Argentina worked to prevent 
Iran from being held accountable, prosecutor Alberto Nisman 
heroically proceeded investigating this bombing, shedding light 
on the alarming and growing partnership between leaders in Iran 
and Argentina.
    Just 1 day before he was scheduled to present his latest 
findings, Alberto Nisman was found dead in his home with a 
fatal gunshot to the head.
    We are grateful that President Macri's government has 
continued to push for Iranian accountability and we hope that 
responsible nations will comply and not afford those involved 
in this terror attack the opportunity to escape justice.
    Twenty-five years later, Iranian-backed Hezbollah continues 
to carry out terror operations. Twenty-five years later, anti-
Semitism continues to threaten the lives of Jewish communities 
throughout Latin America and around the world.
    The rise in anti-Semitic attacks including the brutal 
attack on a rabbi in Argentina earlier this year should put us 
all on notice that we as a global community must do more to 
combat hate.
    And with this vote, the committee honors the memory of the 
victims of this horrific attack, recalls the brave work by 
Alberto Nisman, who lost his life pursuing justice, and calls 
for full accountability for all of those who are responsible.
    I urge my colleagues to support this resolution and the 
other good measures before us today, and I yield back.
    Chairman Engel. Thank you, Mr. Deutch.
    Mrs. Wagner.
    Mrs. Wagner. Mr. Chairman, I would like to thank you very 
much and the ranking member for including H.R. 1632, the 
Southeast Asia Strategy Act, in today's markup.
    I would also like to thank Congressman Castro, with whom I 
founded and co-chair the ASEAN Caucus for working with me on 
this legislation and for his great support of U.S.-ASEAN 
relations.
    This bill will deepen U.S. engagement without Southeast 
Asian partners by requiring the Secretary of State, in 
consultation with other agencies as appropriate, to develop and 
communicate a communicate regional strategy that addresses all 
aspects of the relationship, from trade and humanitarian goals 
to diplomatic and security arrangements.
    ASEAN member States are vital to the prosperity of the 
United States economy, generating hundreds of thousands of 
American jobs and investing more in our economy than China and 
India combined.
    In 2015, the United States and ASEAN elevated the 
relationship into a strategic partnership to enhance 
cooperation across the economic, political security, and 
people-to-people pillars of this relationship.
    Southeast Asian countries seek assurance that the United 
States is a reliable partner as they try to maintain economic 
independence from China and defend their territorial claims in 
the South China Sea.
    While ASEAN countries have expressed support for the Trump 
Administration's free and open Indo-Pacific strategy, which 
promotes cooperation with India, Japan, and Australia to 
contain China, some worry that the focus on the peripheral 
waters of Asia will leave Southeast Asian States to fend off 
China without substantial support.
    The U.S. withdrawal from the Trans Pacific Partnership 
further stoked concerns that the United States is no longer as 
committed to enhancing our trade relations.
    I have had many opportunities to meet with ASEAN officials 
and foreign ministers. One message that I hear repeatedly is 
that the United States must demonstrate strength and leadership 
in the region.
    Congress should listen closely to our partners, who are 
demanding stronger leadership and not just because China would 
be sure to fill any vacuum in power.
    ASEAN is, clearly, a powerhouse and a critical region to 
engage in in and of itself. The U.S. should be proactively 
crafting and implementing its Southeast Asia strategy.
    This bill would require the Administration to do just that. 
I thank the chairman for his attention to U.S. engagement in 
the region and I urge my colleagues to support H.R. 1632, the 
Southeast Asia Strategy Act.
    I thank you, and I yield back, Mr. Chairman.
    Chairman Engel. Thank you, Mrs. Wagner.
    Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman.
    I would like to thank you and your ranking member, Mr. 
McCaul, for your leadership and the slate of bills we have in 
front of us--very important bills all advancing important 
causes, all of which I support.
    I would like to also in particular thank Congressman 
Cicilline for his leadership for the Global Respect Act. I am 
pleased to be a original co-sponsor of the Global Respect Act.
    For too long we have seen prejudice and violence against 
the LGBTI persons globally and here in the United States. This 
bill is a strong response to international human rights abuse 
based on sexual orientation, gender identification, or sex 
characteristics, and it is worth noting the timing of advancing 
this bill since next week we mark an important half century 
milestone. Here in the United States we have come a long way in 
50 years since the Stonewall raid and riots.
    But there is still more work that has to be done to ensure 
the LGBTI individuals have the rights and respect that they 
truly deserve.
    With the passage of the Global Respect Act, the United 
States will lead by example in sending a strong message to our 
counterparts around the world.
    With that, I yield back.
    Chairman Engel. Thank you, Mr. Keating.
    Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman, and I am bouncing back 
and forth between this hearing and Judiciary--this markup and 
Judiciary and Small Business as well, so I will be brief. I 
would just like to comment on two of the bills we have before 
us today.
    The first is H.R. 2229, the First Responders Passport Act, 
which is legislation I introduced to allow the Secretary of 
States to waive passport fees for first responders who are 
contracted to deploy to disaster zones around the world.
    For instance, every 5 years USAID awards contracts to a 
couple fire department search and rescue teams to be able to 
mobilize immediately after disaster strikes abroad.
    Since teams have to be ready to leave the country the day a 
disaster strikes, these first responders must maintain active 
passports.
    However, since they are not government personnel they have 
to do so at their own expense. Furthermore, the teams do not 
deploy all that often. So foreign travel is not really an 
essential part of their jobs normally.
    Brave first responders represent our Nation to people who 
have lost everything across the globe. They should not be 
personally required to incur this expense to do their job. 
Instead, our country should provide them the necessary 
documents so that they can bring the compassion and generosity 
of the American people to those who need it most.
    I also briefly want to mention my amendment to this 
legislation, which brings its text into better alignment with 
its intent.
    It limits the exemption to individuals who are truly first 
responders; that is, those who are under contract to deploy 
within a week and so must have an active passport at all times.
    The second piece of legislation I would like to comment on 
is the BURMA Act, of which I am the lead Republican and I want 
to thank Chairman Engel for sponsoring this legislation and 
working with me to hold the Burmese military accountable for 
its barbaric attacks on the Rohingya in the fall of 2017.
    Since then, I and many on this committee have condemned 
these atrocities. The facts bear repeating. In September 2017, 
the Burmese military began a campaign to permanently drive the 
Rohingya out of Burma that resulted in over 700,000 Rohingya 
refugees fleeing from Rakhine State, Burma, into neighboring 
Bangladesh. They remain there today without any meaningful hope 
of returning home.
    This campaign consisted of widespread, systematic, and 
premeditated human rights abuses including barbaric killings, 
gang rapes, and the burning of around 400 Rohingya villages.
    According to a partial State Department report on these 
atrocities, about half of the Rohingya surveyed said that they 
had personally witnessed a rape while about 80 percent 
witnessed killings and the destruction of villages.
    Since the Burma Act passed the House as part of the NDAA 
last year, there have been substantial developments in our 
understanding of the true horror of these atrocities as various 
investigations have been completed.
    The evidence is so bad that virtually everyone who has 
looked at it says these crimes were genocide and crimes against 
humanity. Based on this evidence last December, the House voted 
overwhelmingly to adopt this resolution determining that the 
atrocities were indeed a genocide and calling for 
accountability.
    It is very disappointing that after almost 2 years, the 
Burmese military has not been held accountable for these 
atrocities.
    The BURMA Act would utilize sanctions and other tools to 
bring about some measure of justice for the Rohingya and move 
Burma toward a better future.
    Time alone will not absolve these crimes and it is long 
overdue that this legislation became law, and I want to thank 
you, Mr. Chairman, for your leadership on this and thank all 
the other members of the committee that have been involved.
    And I yield back.
    Chairman Engel. Thank you, Mr. Chabot.
    Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman.
    I am grateful you have called this markup that we are able 
to advance these bipartisan measures today.
    I want to thank my good friend from Florida, Chairman Ted 
Deutch, for introducing an important bill to condemn the attack 
on the AMIA Jewish Community Center in Buenos Aires, Argentina, 
in 1994.
    As we approach the 25th anniversary of that horrible day, I 
am proud to cosponsor this bill and join Mr. Deutch, Ranking 
Member Rooney, Ranking Member Wilson, and our other colleagues 
in repeating our calls for accountability.
    The AMIA bombing killed 85 people, injured 300, and shook 
the entire Jewish community in Argentina. It was the deadliest 
terrorist attack in Argentina's history. Evidence suggests that 
the terrorist group Hezbollah carried out this vicious and 
cowardly attack with the support of Iran.
    Yet, 25 years later, the perpetrators have not been brought 
to justice. The family of the victims deserve better.
    We in Congress must continue to call for the investigation 
to be completed. We should also continue to condemn those 
powerful interests that have sought to keep the truth from 
coming to light.
    I was honored to visit the AMIA Center in 2016 and meet 
with representatives of the Jewish community in Argentina who 
are still fighting for justice and accountability.
    I plan to lead a bipartisan delegation to Argentina next 
month to once again stand in solidarity with the Jewish 
community in Argentina and throughout the world.
    I urge my colleagues to support this resolution which sends 
a strong message that we will never forget what happened 25 
years ago and we will not give up until the perpetrators have 
been brought to justice.
    I thank Chairman Engel and Ranking Member McCaul for their 
efforts to have this markup and I thank all the members and 
their staff for their hard work.
    Thank you. I yield back.
    Chairman Engel. Thank you, Mr. Sires.
    Mr. Burchett.
    Mr. Burchett. Thank you, Mr. Chairman, and Ranking Member.
    I would like to express my strong support for House 
Resolution 441 and thank Mr. Deutch for introducing it.
    It is pretty clear to me and I guess the members that this 
committee that 25 years ago Hezbollah committed this heinous 
bombing on the Argentine Jewish Mutual Association--the AMIA--
and killed 85 civilians.
    This resolution is a stark reminder of the evil that 
Hezbollah has espoused since their founding in the early 
1980's. Additionally, we must never forget about Hezbollah's 
patron, Iran, who is equally culpable in this massacre and is 
leading the State sponsor in the world.
    It is safe to say that with Iranian help, Hezbollah has 
been able to launch many transnational terror attacks which, 
besides the AMIA, include the Israeli embassy bombing in Buenos 
Aires, the attack on U.S. embassy in Beirut, the Marine 
barracks bombing in Beirut, and not to mention the continued 
threat Hezbollah poses on Israel's northern borders.
    Mr. Chairman, the 25th anniversary of the AMIA bombing is a 
stark reminder that we must never forget the cowardly acts of 
Hezbollah and Iran, the ones that they have perpetrated over 
the years.
    And I yield back the rest of my time. Thank you, Mr. 
Chairman.
    Chairman Engel. Thank you, Mr. Burchett.
    Ms. Bass.
    Ms. Bass. Thank you, Mr. Chairman.
    I want to speak in support of House Resolution 432, 
condemning the attacks on peaceful protestors and supporting an 
immediate peaceful transition to a civilian-led democratic 
government in the Sudan.
    Protests have taken place all across Sudan since December 
2018, both in response to Bashir's authoritarian regime and the 
country's declining economy.
    Bashir was removed in April after being in power for 30 
years, soon after a transitional military council assumed 
control of the country, promising to negotiate a civilian-led 
transition to power.
    In June, the Rapid Support Forces, a militia linked to 
atrocities against civilians in Darfur, slaughter peaceful 
protestors in the streets.
    There have been numerous atrocities committed including 
bodies being found in the Nile River, the killing of a 26-year-
old engineer named Mohamed Mattar, and other reported cases of 
rape in the country while peaceful protests have tried to press 
for a swift return to civilian rule.
    All the while Sudanese security forces have continuously 
cracked down violently on protestors, used excessive lethal 
force, and reportedly detained hundreds.
    The current political crisis has the potential to 
destabilize the country. This resolution is important because 
it signals to the Sudanese population that we stand with their 
call for civilian rule, that we hear them, and that their lives 
are important.
    In the past hearings I have stated my disappointment with 
the Sudanese Security Forces firing live ammunition, causing 
multiple fatalities in order to disband sit-ins and peaceful 
protests in Sudan.
    I am also alarmed that the military has shut down media 
networks in Sudan, the social media. The internet has been shut 
down for more than 17 days.
    I call on the Sudanese Transitional Military Council to 
immediately open up the internet. And it is also critical that 
journalists continue covering this situation in Sudan.
    This not only gives the international community insight 
about what is happening on the ground but also boosts morale 
for protestors.
    I encourage everyone to support House Res. 432 condemning 
the attacks on citizens and supporting an immediate peaceful 
transition to civilian rule.
    Next Tuesday, the Africa Subcommittee is having a hearing 
on the political crisis in Sudan with government witnesses and 
I encourage you all to come and give voice to this alarming 
crisis.
    I have to say that I am deeply disappointed, having 
traveled to Sudan last year and was hopeful that we were moving 
in a positive direction in terms of our two countries. But, 
obviously, this has been a tremendous backslide.
    We also had planned to travel to Sudan next week. But 
because of the crisis, the instability, we are not going to be 
allowed to go into the country.
    So with that, I yield back my time. Thank you.
    Chairman Engel. Thank you, Ms. Bass.
    Mr. Rooney.
    Mr. Rooney. Thank you, Mr. Chairman.
    I want to add my voice and support to my colleague Ted 
Deutch's resolution, H. Res. 441 condemning the attack on the 
AMIA Jewish Community Center in Buenos Aires back in July 1994, 
which expresses concern over the 25-year-long delay in 
resolving the case and encourages that those people responsible 
for this heinous act be held accountable.
    It is critically important that this committee condemn this 
terrorist attack, one of the worst in the history of Latin 
America, and it is equally important that we recognize that 
those victims of the attack and their families deserve justice.
    For 25 years now, Hezbollah, generally backed by Iran, has 
been able to avoid accountability for the murders of these 85 
men, women, and children.
    This resolution serves as a potent reminder that the United 
States will continue to recognize and hold responsible those 
who perpetrate acts of terror anywhere in the world.
    I want to further commend the Macri government of Argentina 
for its effort to find the truth behind the death of prosecutor 
Alberto Nisman, who was responsible for investigating this 
terrorist attack but was found dead with a single bullet to his 
head in his apartment in a crime that we do not necessarily 
think was an accident, and I have the fervent belief that the 
government of Iran was behind it.
    Last, although this terrorist attack was perpetrated 25 
years ago, it should serve as a strong reminder that foreign 
terrorist groups do not just operate across oceans but in our 
own hemisphere as well.
    We all know the things that are taking place on the 
Uruguay-Argentina-Brazil border. We must work with our strong 
ally, Argentina, and all of our partners in the region to 
combat the malign influence of foreign actors and hold those 
responsible who perpetrate crimes and terror against innocent 
people.
    I want to thank my colleague from Florida, Mr. Deutch, 
again for introducing this important resolution. I thank the 
other people who have spoken on its behalf and thank, last, 
Chairman Engel and Ranking Member McCaul for bringing it before 
the committee for swift passage.
    I urge all my colleagues to support the resolution, and 
yield back.
    Chairman Engel. Thank you, Mr. Rooney.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman, and thank you to 
you, Chairman Engel, and Ranking Member McCaul for bringing up 
these important bills in a bipartisan fashion and I, of course, 
urge my colleagues to support all of them.
    I would like to spend a moment on H.R. 3252, the Global 
Respect Act. It speaks volumes to the LGBTI community around 
the world that the U.S. House stands united in support of the 
fundamental rights the LGBTI community to live with dignity, 
free from violence, unlawful detention, torture, and other 
indignities.
    H.R. 3252, the Global Respect Act, will build on existing 
human rights-related sanctions authorities to ensure that human 
rights abusers are held accountable. This legislation will 
require the State Department to compile a list of foreign 
individuals who commit violations against members of the LGBTI 
community and to deny or rescind travel visas for individuals 
who have committed such violations.
    It would also codify reporting requirements on these issues 
in the State Department's annual Human Rights Report.
    As you may be aware, about 80 countries specifically outlaw 
same sex relations with the threat of imprisonment, fines, and, 
in several countries, even death.
    In the past few years, disturbing efforts to target 
lesbian, gay, bisexual, transgender, intersex people and their 
families have passed and been signed into law in several 
countries around the world.
    Violence against LGBTI communities is pervasive and 
sometimes sanctioned or directed by government officials. The 
Universal Declaration of Human Rights States that, and I quote, 
``All human beings are born free and equal in dignity and 
rights.''
    As with any form of social or legal marginalization whether 
based on sex, race, religion, ethnicity, or other status, the 
denial of human rights of LGBTI people is not only wrong, but 
it also negatively affects health outcomes, social stability, 
rule of law, and economic potential.
    The United States must stand up against egregious human 
rights abuses. The Global Respect Act will ensure that 
foreigners who are culpable in violations against the LGBTI 
community face consequences for their actions.
    This bill will send a signal to not just the abusers but to 
the victims that the United States stands with them. Victims 
like Joel Simpson, an LGBTI activist in Guyana who was targeted 
and beaten outside of a nightclub in June.
    Or Assil Belalta, a 21-year-old medical student who was 
attacked in his own home by two assailants who slit his throat 
and wrote, ``He is gay'' on the wall with his blood.
    Or I.J., a victim of Ramzan Kadyrov's systematic rounding 
up and torture of men and women perceived to be gay in 
Chechnya. I.J. described his experience of being detained and 
arrested by Chechnyan security forces in a report written by 
the journalist Elena Malishina, whose dogged reporting at the 
expense of her own safety brought these atrocities to light in 
2017.
    I.J. said of his attack, and I quote, ``They threw me to 
the floor and beat me. They beat my chest and my face with 
their feet and they hit my head against the floor. One of them 
said, 'Do not beat him until the shock stage. At that point, he 
will stop feeling the pain. We do not need that,' end quote. 
They addressed me with female pronouns and demanded that I tell 
them the names of other gay people I knew. They threatened to 
kill me if I didn't,'' end quote.
    Or the LGBTI men and women in Brunei where a new law 
imposes State-sponsored torture and the death penalty for LGBTQ 
people with punishments including floggings and prisons for 
those convicted of engaging in consensual same-sex relations 
and the possibility of death by stoning.
    I could go on and on. This bill is simple and 
straightforward and will give the executive branch greater 
tools to punish those who target the LGBTI community abroad 
whether they are part of a government apparatus or not.
    I thank all of my colleagues on the committee for the 
support of these measures and urge you to support final 
passage.
    And with this, Mr. Chairman, I would ask unanimous consent 
to put into the record a report prepared by the Russian LGBTI 
Network, which details some of these incidents as well as four 
news articles which recount some of the worst atrocities 
against LGBTI individuals around the world.
    Chairman Engel. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Cicilline. And with that, I yield back, Mr. Chairman.
    Chairman Engel. Thank you, Mr. Cicilline.
    Is there anyone on the Republican side that wishes to be 
recognized?
    OK. Mr. Castro.
    Mr. Castro. Thank you, Chairman, and I am proud to support 
all nine bills today.
    I just want to speak quickly about one of them, which is 
H.R. 1632, the Southeast Asia Strategy Act, which I introduced 
with my fellow ASEAN co-chair, Representative Wagner.
    Together we have introduced the Southeast Asia Strategy Act 
to enhance American engagement with this vibrant organization 
and important region in the world.
    For decades, the United States and its allies have 
established the infrastructure of security and prosperity in 
the Indo-Pacific, generating progress for peoples throughout 
Asia.
    Our unshakeable bond and commitments to regional allies 
bind U.S. engagement in the Indo-Pacific. Together, we work to 
reinforce the rules-based multilateral institutions and the 
international order that is proven to be indispensable, an 
effort in which ASEAN is integral.
    Even as the region transforms, the United States and its 
allies remain stalwarts of sustainable inclusive development, 
freedom of exchange and navigation, and democratic norms.
    At the nexus of the region's transformation and central to 
its bright future is Southeast Asia. To place proper emphasis 
on this significant region and invigorate our partnership for 
the years ahead, the United States must articulate a 
comprehensive strategy.
    This bill would direct the Secretary of State to do just 
that. On our shared interests and economic growth, enduring 
peace, reliable energy, and many others, this legislation 
catalyzes positive cooperation and contributes to sustaining a 
free and open Indo-Pacific and I was glad to work with 
Representatives Wagner and Yoho to help bolster a robust U.S.-
ASEAN relationship.
    I yield back.
    Chairman Engel. Thank you, Mr. Castro.
    I understand that Mr. Sires has something to add.
    Mr. Sires. Yes, thank you, Mr. Chairman.
    I would like to add for the record that--to the Cicilline 
resolution that in Cuba the LGBT community had a parade and the 
government broke up the parade by beating them and breaking up 
the parade.
    So I would like to know if I can add that to the record on 
that resolution. They broke it up, beating them and jailing 
people.
    Chairman Engel. Without objection, so ordered.
    Mr. Sires. Thank you.
    Chairman Engel. OK. Thank you.
    Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman.
    I support all the measures before us today and I am a co-
sponsor of several of them. But I would like to speak 
particularly about the Global Respect Act and I want to commend 
Mr. Cicilline on his leadership on this issue.
    I am proud to co-sponsor this legislation to ensure a 
strong and unwavering U.S. response to severe human rights 
abuses against LGBTI people.
    As we celebrate Pride Month, we should be reminded of the 
serious threats people from the LGBTI community continue to 
face around the world.
    As you have heard, in at least 68 countries same-sex and 
relationships are criminalized. The State Department's Human 
Rights Reports have shown a clear pattern of human rights 
violations including murder, rape, torture, death threats, 
extortion, and imprisonment in every region of the world based 
on sexual orientation and gender identity.
    No one should face such treatment for whom they love. The 
sanctions in this legislation are an important tool to push for 
accountability for violations of human rights of LGBTI people.
    I am also glad that this legislation will be included and I 
thank Mr. Cicilline for working with me on the Globe Act, which 
is a comprehensive vision of what the U.S. leadership should be 
doing to advance LGBTI human rights around the world.
    Unfortunately, this administration--under this 
administration the U.S. is ceding its role as a leader in 
advancing human rights and we in Congress cannot stand idly by 
as they try to stop the U.S. embassies from flying Pride flags, 
appoint anti-LGBTI State Department officials, and cozy up to 
authoritarian regimes that are responsible for these grave 
abuses.
    I also want to take a moment to recognize World Refugee 
Day. I am a co-sponsor of House Resolution 444, which 
underscores the important role the U.S. must play in refugee 
resettlement and global responses to the refugee crisis.
    We have a proud tradition of welcoming the world's most 
vulnerable. But, unfortunately, that also is being undermined.
    The Administration continues to shut out those fleeing 
violence, proposed drastic cuts to assistance to address some 
of the root causes of these crises, and cut the refugee 
admission target from a dismal 45,000 in 2018 to only 30,000 in 
2019. These are the lowest targets in modern history.
    The president must not abdicate the moral leadership and if 
he does, the Congress has to step in. We have got to continue 
to welcome those who are seeking a better life and promote the 
safety, health, and welfare of refugees.
    The symbol of the U.S. should remain the Statue of Liberty 
and not become a border wall.
    With that, I yield back.
    Chairman Engel. Thank you, Ms. Titus.
    Mr. Lieu.
    Mr. Lieu. Thank you, Mr. Chair.
    Today is World Refugee Day. I am pleased on this day the 
committee is considering H. Res. 444, a bipartisan resolution 
that I introduced with Representatives Diaz-Balart, Neguse, and 
Lofgren to reaffirm U.S. leadership in responding to the 
displacement crises around the world.
    We are currently facing the worst refugee crisis in 
history. According to the United Nations High Commission of 
Refugees in 2018, there are more than 70.8 million displaced 
persons worldwide. This included nearly 26 million refugees, 
over 41 million internally displaced persons, and 3.5 million 
people seeking asylum.
    Put another way, in 2018, 37,000 people being displaced 
from their homes every single day and about half of these 
refugees were children.
    Here at home in the United States, we have seen a drastic 
reduction in refugee admissions. In 2018, the U.S. resettled 
only 22,000 refugees compared to the 85,000 resettled in Fiscal 
Year 2016.
    Refugees are fleeing home because of a well-founded fear of 
being persecuted for reasons of race, religion, nationality, 
membership, and a particular social group or political opinion.
    The U.S. resettlement program is critical to global 
humanitarian efforts. H. Res. 444 reaffirms the U.S. commitment 
to promote the safety, health, and wellbeing of the millions of 
displaced persons.
    In addition, it recognizes the people in organizations who 
have risked their lives to provide assistance to displaced 
communities.
    And finally, the resolution calls on the Secretary of State 
and the U.S. Ambassador to the United Nations to continue 
supporting robust funding for refugee protection, to set robust 
refugee admission goals, and to work in partnership with the 
international community and find solutions to existing 
conflicts and to promote peace and reconciliation.
    This resolution is supported by more than 60 organizations 
including Church World Service, International Rescue Committee, 
Oxfam America, and Refugees International, and has been co-
sponsored by 62 of our colleagues in the House.
    Thank you, Chairman Engel and Ranking Member McCaul, for 
bringing up this resolution and I yield back.
    Chairman Engel. Thank you, Mr. Lieu.
    Ms. Wild.
    Ms. Wild. Thank you, Mr. Chairman.
    I am pleased to support all of these bills today. But I 
want to speak in support of H.R. 3252, the Global Respect Act, 
and I too commend Mr. Cicilline for his efforts on this, 
because acts of violence and hatred targeting members of 
communities for who they are or what they believe are a threat 
to the moral fabric of our country and our world.
    We cannot let these violations of fundamental human rights 
and dignity go unanswered. Across the world, people are 
harassed, tortured, arrested, detained, and sometimes killed 
because of who they are, who they love, or the gender with 
which they identify.
    Nine countries, including Saudi Arabia, have laws on the 
books making homosexuality a crime punishable by death. 
Recently, Brunei codified the punishment of homosexuality by 
capital punishment, ultimately announcing that it would not 
proceed with executions for the time being in light of the 
international outcry that followed, but still leaving the law 
on the books.
    In the Russian region of Chechnya, a coordinated strategy 
of purges, detentions, and executions has terrorized the LGBT 
community. Despite being part of the Russian Federation, the 
local authorities in Chechnya have been left free to operate 
with impunity.
    The Global Respect Act would take a crucial step in saying 
unequivocally that LGBTQ people must be free from being 
targeted, attacked, or imprisoned on the basis of sexual 
orientation or gender.
    By requiring the State Department to track individuals 
responsible for violations against members of the LGBTQ 
community around the world and denying or revoking visas for 
individuals who have committed such violations, we will send a 
clear message to allies and adversaries alike.
    The LGBTQ rights are human rights. By passing this 
legislation, we have the opportunity to place our country 
firmly on the right side of history, affirming that we call for 
respecting the rights and dignity of all people everywhere.
    I encourage my colleagues on this committee on both sides 
of the aisle to pass the Global Respect Act.
    Thank you, Mr. Chairman. I yield back.
    Chairman Engel. Thank you, Ms. Wild.
    Mr. Levin.
    Mr. Levin. Thank you, Mr. Chairman, and I want to commend 
you and Mr. McCaul, the ranking member, for your leadership and 
your work on this. I feel, as a new member of the Congress, 
that the work of this committee is a real model for the House 
and for the whole Congress in terms of how we work together in 
a bipartisan way.
    And I want to speak specifically to urge my colleagues to 
support the Burma Political Prisoners Assistance Act, H.R. 
2327.
    In the past couple years, there has rightly been a lot of 
attention on the horrific crimes against the Rohingya people. 
It is a genocide and we have an obligation to act both as 
policymakers and as human beings.
    But far less has been said about those who are fighting to 
shed light on that crisis and share the stories that are, 
sadly, so dangerous yet so important to tell about the Rohingya 
situation and other human rights violations in Burma.
    I am talking about people like Wa Lone and Kyaw Soe Oo, 
Reuters journalists who were arrested while investigating a 
massacre of Rohingya men and boys and spent more than 500 days 
in prison before being released last month.
    Even now they have not been officially exonerated of the 
false charges against them. Their stories are indicative of a 
much, much bigger problem when it comes to free expression in 
Burma.
    There have been crackdowns on peaceful protestors. There 
was the arrest of Aung Ko Htwe, a former child soldier, who 
gave an interview talking about his experience being abducted 
and forcibly recruited by the Burmese military at the age of 
13. For that, he faces up to 2+ years in jail.
    While our State Department and USAID are working to aid 
political prisoners, more needs to be done. That is where this 
bill comes in. We need to support efforts to change or repeal 
the very laws that are being used to stifle free expression and 
honest reporting and that were used to imprison people like Wa 
Lone and Kyaw Soe Oo.
    Many of these laws date back to the colonial era. We should 
support the creation of an independent prisoner review 
mechanism to examine cases like these and offer recommendations 
as to how the law might better protect free expression and we 
need to make clear that this Congress is united, Democrats and 
Republicans, in our support for a free press, freedom of 
expression, and the fundamental rights of the Burmese people.
    Thank you, again, Mr. Chairman, for bringing this bill up 
today and to your staff for their hard work, and I want to 
thank in particular Congresswoman Wagner for partnering with me 
to introduce this legislation.
    I urge my colleagues to support it and the entire package, 
and I yield back the balance of my time.
    Thank you.
    Chairman Engel. Thank you, Mr. Levin.
    Ms. Spanberger.
    Ms. Spanberger. Thank you, Mr. Chair.
    I would like to speak today in support of House Resolution 
432, condemning the attacks on peaceful protestors and 
supporting an immediate peaceful transition to a civilian-led 
democratic government in Sudan.
    I am incredibly supportive of this effort because it is so 
vitally important for us, as members of the U.S. Congress, to 
stand up for civilians and those who are using their voices, 
those who are trying to impact change in their own communities 
through peaceful transitional efforts.
    I also speak in support of this resolution because I have a 
substantial Sudanese-American community who have family members 
and friends impacted who are fearful in the streets of their 
home country as they try to lift up their voices, as they try 
to peacefully protest and impact change within their country.
    And it is today in support of them and in support of the 
peaceful protestors who are seeking a transition to a civilian-
led government that I ask all of my colleagues to support House 
Resolution 432.
    Thank you. I yield back.
    Chairman Engel. Thank you, Ms. Spanberger.
    Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman, to you and to 
the ranking member.
    Today is a very good day for the House Foreign Affairs 
Committee because all of these pieces of legislation really 
speak to the moral high ground that I think reflects American 
values--American values of human rights, American values of 
freedom of speech, freedom of religion, freedom to gather.
    Let me just point out a couple of the pieces of legislation 
that I think, for me, are personal. The impacts of U.S. 
leadership in responding to displacement of refugees around the 
world is something that as always in the past stood out for 
America as a beacon of light around the world, and the refugee 
crisis that we have on our own borders is one that reminds us 
of the fact that we have a role to play.
    Anti-Semitism, sadly, continues to still exist around the 
world and it is fitting and appropriate that we recognize the 
attack that took place in July 1994 in Buenos Aires, reminding 
all of us that in fact anti-Semitism still, sadly, today occurs 
around the world and we must call it out for where and when we 
see it.
    Having been to Sudan, I can tell you that the resolution 
H.R. 432 is fitting and appropriate. The horrific violation of 
human rights in Sudan has been well known and demonstrated, and 
clearly, even with the change of the horrific regime that 
perpetuated the violation of human rights we still see people 
suffering in Sudan. We must call it out for what it is.
    And, clearly, America, as a beacon of religious freedom 
throughout our history, it is appropriate that the ethnic and 
religious minorities in Iraq, a part of the world that many of 
us have been to and which we have expended a great deal of 
American resources, we must remind those in Iraq that they have 
a responsibility in this area.
    Finally, as was noted before by my colleagues, it is Gay 
Pride Month, and the LGBTI community has had a long and 
difficult journey, not only in our country but around the 
world.
    Countries in which these abilities of people to enjoy their 
own basic rights, to love the persons that they choose in 
consensual relations, in some parts of the world we know is 
punishable by death and that is simply, simply unacceptable.
    And so these pieces of legislation, separately and taken 
together, I think make a incredibly strong statement today for 
the Foreign Affairs Committee and attribute to the leadership 
on a bipartisan basis that America is still a beacon of light 
and that we still, as a country, can come together and maintain 
the moral high ground, and I think this package of bills 
reflects that sentiment and it is something that we should all 
be proud of today.
    I will yield back the balance of my time, but I want to 
commend my colleagues and the authors of these five pieces of 
legislation, and look forward to supporting the entire package.
    I yield back the balance of my time. Thank you.
    Chairman Engel. The gentleman yields back. Thank you, Mr. 
Costa.
    Are there any other members seeking recognition? Hearing no 
further requests for recognition, then without objection the 
committee will proceed to consider the noticed items en bloc.
    A reporting quorum is present and without objection each 
measure is considered as read and the amendments to each are 
considered as read and are agreed to.
    The question occurs on the measures en bloc as amended if 
amended.
    All those in favor say aye.
    All those opposed, no.
    In the opinion of the chair, the ayes have it. The measures 
considered en bloc are agreed to.
    And without objection, each measure is ordered favorably 
reported as amended if amended, and each amendment to each bill 
shall be reported as a single amendment in the nature of a 
substitute.
    Without objection, staff is authorized to make any 
technical and conforming changes, and this concludes our 
business today.
    I thank all the members of the committee, especially 
Ranking Member McCaul, for their contributions and assistance 
with today's markup.
    The committee stands adjourned. Let me just say for those 
who want to take a photo to show your blue for Sudan, we will 
be doing it quickly right after we end, which is now.
    Thank you very much. The committee is adjourned.
    [Whereupon, at 11:09 a.m., the committee was adjourned.]

                                APPENDIX
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                  ADDITIONAL MATERIALS FOR THE RECORD
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre></body></html>
